BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Wanda
Albritten v. Cal Fire, Dee Dee Garcia, was sent via
Three Day Service to the U.S. Supreme Court, and 3
copies were sent via e-mail service to the following
parties listed below, this 17th day of August, 2020:
Tamara L. Morgan
Supervising Deputy Attorney General
Office of the Attorney General
Employment and Administrative Mandate Section
Investigations Group
1300 I Street
Sacramento, CA 95814
(916) 210-6100
Tamara.Morgan @doj.ca.gov
Marianne. baschiera@doj.c a.gov
Counsel for Respondents
John A. Shepardson
Counsel of Record
Law Offices of John A. Shepardson
125 E. Sunnyoaks Ave., No. 104
Campbell, CA 95008
(408) 395-3701
J ohn@Shepardso nlaw.com
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

J

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 17, 2020.

ITonna J. W
Becker Gallagh el' Legal P ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Clo~ /7-

NotaryP~
[seal]

~

1

CZJJ-O

